GR-70-98-020
U.S. DEPARTMENT OF JUSTICE
 

AUDIT REPORT
 
 Community Oriented Policing Services
Grants to the New Brunswick, New Jersey Police Department
 
Grant Numbers 95-CF-WX-2436 (FAST/UHP), 96-CM-WX-0180 (MORE 95),
97-CM-WX-1165 (MORE 96)
 
Report Number GR-70-98-020
 
SEPTEMBER 1998
 

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the New Brunswick, New Jersey Police Department (New Brunswick). New
Brunswick was awarded a total of $546,550 in COPS grants to hire 6 sworn officers and
redeploy 4.4 full-time-equivalent (FTE) sworn officers to community policing.
Our audit revealed the following:


Under MORE 95, New Brunswick spent about $196,000 in federal funds and local matching
    funds for computer equipment; however, about 66 percent of those expenditures were for
    items not included in New Brunswicks approved MORE 95 grant budget. As a result, we
    question $47,388, or 66 percent, of the $71,800 that New Brunswick received as
    reimbursement.


New Brunswick officials said that they do not intend to hire three officers with funds
    available under a UHP grant. Therefore, we recommend that COPS deobligate the $225,000 and
    put the funds to a better use.


New Brunswick officials did not have a retention plan or any other documentation to
    support their plans to retain their grant-funded officers. Therefore, we recommend that
    COPS withhold the remaining $23,104 in grant funds until New Brunswick submits a retention
    plan.


New Brunswick did not always submit timely and accurate monitoring reports.

#####